                            OFFICE OF
                     THE INSPECTOR GENERAL


                         U.S. NUCLEAR
                    REGULATORY COMMISSION


                             Review of NRR’s
                    License Amendment/Safety Evaluation
                                 Process

                     OIG-01-A-05      September 18, 2001




                        AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                              NRC’s website at:
                   http://www.nrc.gov/NRC/OIG/index.html
                                           Review of NRR’s License Amendment/Safety Evaluation Process




                                             September 18, 2001




MEMORANDUM TO:                William D. Travers
                              Executive Director for Operations



FROM:                         Stephen D. Dingbaum/RA/
                              Assistant Inspector General for Audits


SUBJECT:                      REVIEW OF NRR’S LICENSE AMENDMENT/SAFETY
                              EVALUATION PROCESS (OIG-01-A-05)


Attached is the Office of the Inspector General’s audit report titled, Review of NRR’s License
Amendment/Safety Evaluation Process.

In June 1999, the U.S. Nuclear Regulatory Commission approved an Indian Point 2 nuclear
power plant license amendment request to extend a previously established steam generator
inspection interval. In February 2000, a steam generator tube failed, generating considerable
public interest. Congressional interest in this event caused the Office of the Inspector General
(OIG) to initiate a review of the Office of Nuclear Reactor Regulation’s (NRR) license
amendment process.

The review determined that NRR has developed a detailed process for responding to license
amendment requests that includes the development of safety evaluations. However, the
process does not provide adequate controls to demonstrate that all process steps are
completed and supported by adequate documentation. OIG is making three recommendations
that should enhance the process.

At an exit conference on August 30, 2001, agency staff agreed with our recommendations, and
provided editorial suggestions that have been incorporated into the report where appropriate.

If you have any questions, please contact Bill McDowell at 415-5974 or me at 415-5915.

Attachment: As stated

cc:     J. Craig, OEDO
                             Review of NRR’s License Amendment/Safety Evaluation Process

R. McOsker, OCM/RAM
B. Torres, ACMUI
B. Garrick, ACNW
D. Powers, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
S. Reiter, CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
D. Rathbun, OCA
W. Beecher, OPA
A. Vietti-Cook, SECY
W. Kane, DEDR/OEDO
C. Paperiello, DEDMRS/OEDO
P. Norry, DEDM/OEDO
M. Springer, ADM
R. Borchardt, NRR
G. Caputo, OI
P. Bird, HR
I. Little, SBCR
M. Virgilio, NMSS
S. Collins, NRR
A. Thadani, RES
P. Lohaus, OSP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, RES
J. Johnson, NRR
H. Miller, RI
L. Reyes, RII
J. Dyer, RIII
E. Merschoff, RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
                                         Review of NRR’s License Amendment/Safety Evaluation Process


EXECUTIVE SUMMARY

PURPOSE

      In June 1999, the U.S. Nuclear Regulatory Commission (NRC) approved an Indian
      Point 2 nuclear power plant license amendment request to extend a previously
      established steam generator inspection interval. In February 2000, a steam generator
      tube failed, generating considerable public interest. Congressional interest in this event
      caused the Office of the Inspector General (OIG) to initiate a review of the Office of
      Nuclear Reactor Regulation’s (NRR) safety evaluation process to (1) evaluate its
      efficiency and effectiveness and (2) determine whether refinements are needed.

BACKGROUND

      Commercial nuclear power plant licensees submit approximately 1,500 applications per
      year to amend their operating licenses. NRR is responsible for processing and
      responding to these license amendment requests. Safety evaluations are an essential
      part of NRR’s response. Safety evaluations provide the regulatory bases for the staff’s
      decisions on licensing actions and the technical, safety, and legal basis for NRR's
      disposition of a license amendment request.

      NRR’s review of license amendment applications is the primary mechanism for
      regulating changes in licensees’ operations at commercial nuclear power facilities.
      License amendment applications may include: (1) changes to position titles and simple
      changes to set points or other technical specification details; (2) extensions of allowed
      outage times or surveillance test intervals, or other changes that do not involve major
      changes or review of established NRC policies; and (3) significant restructuring of
      technical specifications, changes that introduce significantly different analytical
      methodologies, and changes that are related to revising established NRC policies.
      Additionally, the agency is facing additional challenges in several areas such as license
      amendment requests for significant power uprates, license renewals, longer operating
      cycles, and use of higher burn-up fuels. These requests are placing increased
      demands on NRR’s technical review capabilities. Therefore, it is important that NRR
      have a reliable and predictable license amendment review process that accurately
      documents agency decisions.

RESULTS IN BRIEF

      NRR has developed a detailed process for responding to license amendment requests
      which includes the development of safety evaluations. The process is well thought out,
      thorough, and provides all necessary steps for ensuring that staff perform the required
      technical reviews to approve or disapprove license amendment requests. During the
      audit, OIG discussions with NRC officials and stakeholders did not reveal any concerns
      regarding the technical quality of safety evaluations.




                                               i
                                         Review of NRR’s License Amendment/Safety Evaluation Process



     However, the process does not provide adequate controls to demonstrate that all
     process steps are completed and supported by adequate documentation. In addition,
     not all process steps could be verified by official or other documentation readily available
     in NRR. This is because NRR has not met agency record management requirements in
     documenting the license amendment process. Failure to perform these important
     administrative steps may lead to weak management practices. NRR’s safety evaluation
     review process needs to be modified to provide a clear documented decision-making
     path. These improvements will strengthen NRR’s regulatory process and also help
     enhance stakeholder confidence in the license amendment process. Without the
     improvements, stakeholder confidence could be compromised.

RECOMMENDATIONS

     OIG is making three recommendations to the Executive Director for Operations that
     NRR should: (1) revise its procedural guidance and related flow charts applicable to
     license amendment processing to appropriately reflect the work flow and records
     management steps needed to meet agency records management requirements; (2)
     implement a process that ensures NRR staff completes all steps necessary to process a
     license amendment and any resultant safety evaluations; and, (3) implement a process
     for NRR staff to maintain and appropriately retrieve documents necessary to support the
     license amendment process and any resultant safety evaluations.

AGENCY COMMENTS

     At an exit conference held on August 30, 2001, agency managers generally agreed with
     the facts and recommendations contained in the discussion draft audit report. Agency
     management chose not to provide a formal written response for inclusion in the final
     report. Editorial suggestions provided by agency management were incorporated where
     appropriate.




                                              ii
                                  Review of NRR’s License Amendment/Safety Evaluation Process



ABBREVIATIONS AND ACRONYMS

    ADAMS            Agencywide Documents Access and Management System
    CFR              Code of Federal Regulations
    FRN              Federal Register notice
    IP2-1            Indian Point Unit 2 license amendment request of April 13, 1994
    IP2-2            Indian Point Unit 2 license amendment request of December 7,
                     1998
    Letter No. 803   NRR Office Letter No. 803, Revision 3, License Amendment
                     Review Procedures and the Guide for Processing License
                     Amendments
    NRC              U.S. Nuclear Regulatory Commission
    NRR              Office of Nuclear Reactor Regulation
    NARA             National Archives and Records Administration
    OAR              Official Agency Records
    OGC              Office of the General Counsel
    OIG              Office of the Inspector General
    PERRY            Perry Unit 1 license amendment request of September 9, 1998
    PSAB             Probabilistic Safety Assessment Branch
    RAI              request for additional information
    SE               safety evaluation
    SRP              Standard Review Plan for the Review of Safety Analysis Reports
                     for Nuclear Power Plants
    STP2             South Texas Project Unit 2 license amendment request of
                     February 21, 2000
    TAC              Technical Assignment Control
    U.S.C.           United States Code
    WISP             Workload Information and Scheduling Program




                                         iii
         Review of NRR’s License Amendment/Safety Evaluation Process




[Page intentionally left blank.]




               iv
                                                    Review of NRR’s License Amendment/Safety Evaluation Process



TABLE OF CONTENTS

    EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
    ABBREVIATIONS AND ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
    I.       PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
    II.      BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
    III.     FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
             A. THE NRR PROCESS FOR RESPONDING TO LICENSE AMENDMENT
                  REQUESTS AND CONDUCTING SAFETY EVALUATIONS IS DETAILED
                  AND W ELL THOUGHT OUT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
             B. ALL NRR PROCESS STEPS COULD NOT BE VERIFIED
                 BY DOCUMENTS AVAILABLE IN NRR AND RETENTION/RETRIEVABILITY OF
                 SUPPORTING DOCUMENTS DO NOT MEET AGENCY REQUIREMENTS . . . . . . . . . . 4
    IV.      SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
    V.       RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
    VI.      AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


    APPENDICES
    A.       SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
    B.       LICENSE AMENDMENT WITH TECHNICAL BRANCH REVIEW PROCESS -
             COMPOSITE FLOW CHART . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
    C.       RESULTS OF OIG ANALYSIS OF SELECTED LICENSE AMENDMENT
             APPLICATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
    D.       NRR WORK REQUEST FORM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
    E.       RECORD RETENTION REQUIREMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . 37




                                                           v
         Review of NRR’s License Amendment/Safety Evaluation Process




[Page intentionally left blank.]




               vi
                                        Review of NRR’s License Amendment/Safety Evaluation Process



I. PURPOSE

    In June 1999, the U.S. Nuclear Regulatory Commission (NRC) approved an Indian
    Point 2 nuclear power plant license amendment request to extend the previously
    established steam generator inspection interval. In February 2000, a steam generator
    tube failed, generating considerable public interest. Subsequently, Congresswoman
    Sue W. Kelley of New York questioned the adequacy of NRC’s review leading to the
    approval of the extension. At her request, the Office of the Inspector General (OIG)
    initiated a review of the Office of Nuclear Reactor Regulation’s (NRR) safety evaluation
    process to (1) evaluate its efficiency and effectiveness and (2) determine whether
    refinements are needed. Appendix A contains details regarding the scope and
    methodology of this review.

II. BACKGROUND

    To provide assurance that nuclear power plants operate safely, NRR requires licensees
    to adhere to specific licensing requirements. Nuclear power plant licensees submit
    approximately 1,500 requests per year to amend their operating licenses. These
    applications may include: (1) changes to position titles and simple changes to set points
    or other technical specification details; (2) extensions of allowed outage times or
    surveillance test intervals, or other changes that do not involve major changes or review
    of established NRC policies; and (3) significant restructuring of technical specifications,
    changes that introduce significantly different analytical methodologies, and changes that
    are related to revising established NRC policies. In fiscal year 2001, NRR budgeted for
    88 staff and almost $870,000 to support the review of licensing actions related to
    nuclear power plants.

    Safety evaluations are an essential part of NRR’s response to license amendment
    requests. Safety evaluations provide the regulatory bases for the staff’s decisions on
    licensing actions and the technical, safety, and legal basis for NRR's disposition of a
    license amendment request. The safety evaluation should provide sufficient information
    to explain the staff's rationale in approving or denying the license amendment to
    someone unfamiliar with the licensee's request. It should also include a brief description
    of the proposed change, the regulatory requirements related to the issue, and an
    evaluation that explains why the staff's disposition of the request satisfies regulatory
    requirements. The review of these applications is one of the primary mechanisms for
    regulating changes in the licensees’ operations at commercial nuclear power facilities.

    NRR Office Letter No. 803, Revision 3, License Amendment Review Procedures and
    the Guide for Processing License Amendments (Letter No. 803) is the guidance NRR
    staff must follow to complete the license amendment review process. This guidance
    states that project managers are responsible for the general oversight and coordination
    of processing license amendment requests. NRR Project Directorate section chiefs
    assign safety evaluation responsibilities to project managers. Project managers may
    either perform the license amendment review personally or coordinate a review
    performed by NRR technical branch staff and/or contractor personnel. Project
    managers are to ensure that staff assigned adhere to agency guidelines and principles
    of good regulation throughout the process. For those safety evaluations not prepared


                                             1
                                         Review of NRR’s License Amendment/Safety Evaluation Process



     by project managers, section chiefs in NRR’s technical branches use their knowledge of
     the skills and abilities of their staff to assign the technical reviewers. Project managers
     may also request that a particular technical reviewer perform an evaluation. The Office
     of the General Counsel (OGC) reviews all amendment packages for legal adequacy and
     defensibility, unless a memorandum of agreement is developed stating that specific
     amendments do not require OGC concurrence.

     Goals for timely performance on licensee amendment requests are based on the NRR
     Operating Plan, budget assumptions, and other agency goals. The quality of safety
     evaluations is based on the professional abilities of the preparers and is assured
     through a review and concurrence process which verifies the quality and consistency of
     license amendment packages. A number of administrative documents guide the review
     process in addition to Letter No. 803. The Standard Review Plan for the Review of
     Safety Analysis Reports for Nuclear Power Plants (SRP) provides technical guidance for
     many safety evaluations. NRR Office Letter No. 101, Revision 13, Delegation of
     Signature Authority provides guidance on the authorities required in the review and
     approval (or concurrence) process.

     Safety evaluations receive several levels of review before approval by NRR
     management. Additionally, license amendment requests identified as needing additional
     risk assessment insights are referred to NRR’s Probabilistic Safety Assessment Branch
     (PSAB) for an additional level of review of their significance. According to an NRR
     senior official, about 5 percent of the approximately 1500 incoming licensing actions
     each year are risk-informed.

     However, the agency is facing additional challenges in several areas. Notably, NRR is
     expecting license amendment requests for significant power uprates, license renewals,
     longer operating cycles, and use of higher burn-up fuels. As a result, NRR’s processing
     of license amendment requests, and any resultant safety evaluations, needs to be as
     efficient and effective as possible. Any needed refinements to enhance the process
     should be implemented in a timely manner.

III. FINDINGS

     Over the past few years, NRR has successfully reduced the age of its backlog of
     requests. For example, in fiscal year 1998, about 66 percent of licensing actions were
     less than one year old. By fiscal year 2000, NRR had improved significantly on this
     performance measure and 98 percent were less than one year old. NRR has developed
     a detailed process for responding to license amendment requests and conducting
     independent safety evaluations. The process is well thought out, thorough, and
     provides all necessary steps for ensuring that required technical reviews to approve or
     disapprove a license amendment request are performed. In addition, discussions during
     the audit with NRC officials and stakeholders did not reveal any concerns regarding the
     technical quality of safety evaluations.




                                              2
                                            Review of NRR’s License Amendment/Safety Evaluation Process



    However, the process does not provide adequate controls to demonstrate that the staff
    completes all steps and can support the internal decision-making process with adequate
    documentation. In addition, not all NRR process steps could be verified by official or
    other documentation readily available in NRR. This is because NRR has not met
    agency records management requirements in documenting certain steps in the license
    amendment process. As a result, stakeholder confidence in NRR’s approval of license
    amendments and supporting safety evaluations could be compromised.

    A. The NRR Process For Responding To License Amendment Requests And
    Conducting Safety Evaluations Is Detailed And Well Thought Out

    NRR has generally followed the same process for performing license reviews since
    1975. As the agency grew in experience, a former NRR Director determined the need
    to establish guidelines for these review activities and developed the SRP.
    Subsequently, NRR developed Letter No. 803 to provide license amendment review
    procedures.

    Letter No. 803, with reference to other supporting documents, provides a description of
    the license amendment review process, including the development of supporting safety
    evaluations. It outlines procedures for ensuring a detailed technical review of requested
    license amendments and subsequent NRR generated documents, with qualified staff, in
    a scheduled manner, and in a priority order.

    In fiscal year 2000, NRR further defined the procedures in Letter No. 803 by creating
    two draft flow charts to depict the procedures outlined in the letter.1 The flow charts are
    basically the same. The exception is that one depicts amendment processing by a
    project manager, without the assistance of technical reviewers, while the other adds the
    steps required when technical assistance is required. Early steps in each chart identify
    administrative processing responsibilities for licensees, NRC’s document control desk,
    and NRR’s Work Planning Center.2

    Subsequent steps provide project manager, licensing assistant, and project section chief
    responsibilities related to further license amendment processing, work planning, safety
    evaluation development, and final amendment package requirements. In cases when
    technical branch reviewers are needed to determine the appropriateness of a license
    amendment request, the applicable flow chart provides detailed steps for the technical
    branches in generating safety evaluations. Both charts also show the need for OGC to
    review and concur on the final license amendment package.

    To assess the perceived quality of safety evaluations, OIG interviewed NRC officials and
    stakeholder representatives. These discussions did not reveal any concerns regarding
    the technical quality of safety evaluations. For example, none of those interviewed
    could identify any plant where a problem was identified due to a license amendment
    based on a flawed safety evaluation. Furthermore, a review of allegations received by



1
    License Amendment with Project Manager Review Process - Composite and License Amendment Request
    with Technical Branch Review Process - Composite (see Appendix B)
2
    NRR’s Work Planning Center is currently under development and has not yet been formally implemented.
                                                  3
                                              Review of NRR’s License Amendment/Safety Evaluation Process

    NRC identified that none were related to safety evaluations. Finally, OGC officials noted
    that NRC has never lost a legal challenge to an issued license amendment.

    B. All NRR Process Steps Could Not Be Verified By Documents Available In NRR
    And Retention/Retrievability Of Supporting Documents Does Not Meet Agency
    Requirements

    While Letter No. 803 and the flow charts indicate the steps to be taken in processing
    license amendments and their supporting safety evaluations, they do not identify the
    need to document certain steps in the review process. Although there are requirements
    for documenting some of the steps, other important steps do not require documented
    evidence of completion. Additionally, the office letter and flow charts do not contain
    guidance directing which documents should be maintained as official agency records.
    Consequently, the lack of documentation makes it difficult for NRR to completely
    support certain aspects of its internal decision-making process.

    OIG wanted to assess whether NRR staff processed license amendments, and their
    related safety evaluations, in accordance with office guidance and maintained adequate
    documentation to demonstrate that NRR staff met the guidance. To that end, OIG
    reviewed four license amendment requests, steps to respond to them, and
    documentation to support the subsequent decisions to allow the requested actions. OIG
    negotiated with NRR management about providing the supporting documents. OIG
    indicated the desire to see all documents that would prove each step in the amendment
    process, but not to the extent that a large amount of agency resources would be
    expended. Documents not readily available or easily retrievable would indicate a
    document management or retrievability issue related to the overall process. In this
    report, OIG will indicate if the unavailability of documents to support the license
    amendment process steps was important or not. It should be noted that unavailability of
    documents during this review does not mean they do not exist within the agency.
    Rather, it means they were not readily available for this review.

    The four amendment requests reviewed were for:

    !        Indian Point Unit 2 (April 13, 1994) - An amendment request to permit steam
             generator tube sleeving as an alternative to removing defective tubes from
             service through the use of tube plugs and a proposal for a new tube acceptance
             criteria that would allow tubes that are degraded in a location not affecting
             structural integrity of the tube to remain in service (IP2-1);3

    !        Indian Point Unit 2 (December 7, 1998) - An amendment request to permit a
             one-time only extension of the steam generator tube in service inspection
             interval (IP2-2);




3
    Subsequent to this amendment being submitted, IP2 asked that the portion of the original amendment
    request pertaining to steam generator tube sleeving be separated from the original request in order to allow
    additional review of current sleeving technical issues.
                                                     4
                                            Review of NRR’s License Amendment/Safety Evaluation Process



    !       South Texas Project Unit 2 (February 21, 2000) - An amendment request to
            implement an alternate-repair-criteria methodology for Unit 2 Model E steam
            generators (STP2); and

    !       Perry Unit 1 (September 9, 1998) - An amendment request related to hydrostatic
            (water) testing of containment isolation valves in the Feedwater System lines
            (PERRY)4

    Overall, NRR staff implemented most of the required license amendment and safety
    evaluation process steps. However, based on the official and other documentation
    readily available in NRR and supplied to the auditors, OIG could not verify that NRR
    staff took actions for certain process steps. As such, the process does not provide
    adequate controls to demonstrate that all process steps are completed and supported
    by adequate documentation. Chart 1 provides summary results of the OIG analysis for
    the four license amendment packages reviewed. Appendix C provides a detailed
    discussion of significant criteria related to NRR’s license amendment review process
    and OIG’s analysis of the documents that NRR provided to demonstrate compliance
    with that criteria. It should be noted that all license amendment requests OIG reviewed
    involved technical branch reviews. Therefore, OIG’s evaluation and subsequent
    conclusions relate only to the license amendment process when technical staff support
    is required. However, these types of amendment requests represent the more
    significant, complex, and technical types of review performed by NRR.

    As shown in the “Administrative” portion of Chart 1, NRR staff generally follow the
    administrative steps for receiving, and initial processing of, license amendment requests
    and has the documents to prove this. The unavailable documentation associated with
    STP2 did not affect the technical considerations associated with the amendment
    requested or its resultant safety evaluations.

    However, remaining portions of Chart 1 indicate that documents directly associated with
    project manager and technical branch staff processing of license amendments are not
    readily available to prove that all steps have been completed. NRR provided timely and
    adequate documents for seven of 38 steps (the green indicators), timely but incomplete
    documentation for 16 steps (the yellow indicators), and no documentation for 15 steps
    (the red indicators). NRR managers indicated that staff are not required to document
    several of the steps. However, by not documenting the completion of steps, NRR
    cannot demonstrate the total process has occurred or that the review was as thorough
    as it should have been.




4
    After submitting the initial license amendment application, PERRY submitted a “Supplement to a License
    Amendment Request: Improved Licensing Design” on January 6, 1999. The first line of that supplement
    states, “This letter supercedes the Feedwater Penetration Improvement license amendment request dated
    September 9, 1998.” The issue of whether this was a “supplement” or “supercedes” the original license
    amendment application will be discussed in context during various portions of Appendix C.
                                                  5
                                           Review of NRR’s License Amendment/Safety Evaluation Process

          Chart 1: OIG Summary Analysis of Documents Supporting
           NRR’s License Amendment/Safety Evaluation Process

Flow Steps                                                          IP2 - 1   IP2 - 2 STP2 PERRY

Administrative

(Licensee) Submit license amendment request

(NRC Document Control Desk) Receive/process/distribute

(NRR) Assign technical assignment control number

Project Manager/Technical Branch Reviewers

Perform acceptance review

Perform characterization of review

Provide guidance on policies and applicable precedents

Technical Branch Reviewers

Define regulatory requirements, policies, applicable precedents

Prepare initial questions for use in RAI

Prepare formal RAI

Prepare safety evaluation

Project Managers

Notify public and complete no significant hazards consideration

Prepare environmental assessment (if necessary)                        na      na      na      na

Evaluate request for withholding information / prepare response                na              na

Review, concur, and prepare final amendment package


         Adequate documentation

         Incomplete documentation

         No documentation

na       Not applicable




                                                6
                                              Review of NRR’s License Amendment/Safety Evaluation Process



    In addition, NRR is not complying with the agency’s own document retention standards
    in some cases.5 (See Appendix E for details regarding NRC’s record retention
    requirements.) Working files (e.g., preliminary drafts, rough notes, other similar
    materials) are to be retained if they contain unique information, such as substantive
    annotations or comments, that adds to a proper understanding of the agency’s
    formulation and execution of basic policies, decisions, actions, or responsibilities. Letter
    No. 803 does not contain the same requirements contained in the agency’s records
    management guidance. The documents NRR could not provide in a timely manner to
    OIG in support of the license amendment process (either those missing or incomplete)
    constitute official agency records and should be available for review and readily
    retrievable. Without such documents, NRR cannot provide stakeholders the relative
    confidence that staff implement the thorough, well planned license amendment process
    as described.

IV. SUMMARY

    The NRR process for handling license amendment requests and providing for resultant
    safety evaluations is detailed, well thought out, thorough, and provides all necessary
    steps for ensuring that required technical reviews to approve or disapprove a license
    amendment request are performed. However, the process lacks adequate
    documentation controls to ensure that NRR staff have completed all process steps and
    can provide adequate documentation to demonstrate this. In addition, NRR has not met
    agency records management requirements in documenting certain steps in the license
    amendment process. As a result, NRR does not retain and/or cannot easily retrieve
    many of the documents that demonstrate certain aspects of NRR’s decision making
    process. Failure to perform these important administrative steps can lead to weak
    management practices which can result in the improper processing of license
    amendment requests. NRR’s license amendment review process needs to be modified
    to provide a clear decision-making path. These improvements will strengthen NRR’s
    regulatory process and help to enhance stakeholder confidence in that process.
    Without the improvements, stakeholder confidence could be compromised.

V. RECOMMENDATIONS

    OIG recommends that the Executive Director for Operations:

    1.       Revise Letter No. 8036 and related flow charts applicable to license amendment
             processing to appropriately document the work flow and records management
             steps needed to meet agency records management requirements.



5
    Management Directive Handbook 3.53, Part 1, Volume 3, Part 2 - Records Management, NRC Records
    Management Program (MD 3.53) and the ADAMS 3.3 Desk Reference Guide (ADAMS Guide).
6
    On August 20, 2001, NRR replaced Letter No. 803 with Office Instruction LIC-101, License Amendment
    Review Procedures. The new instruction contained some guidance changes, but nothing that would negate
    the results of the OIG review. For purposes of this report, to prevent confusion and provide for continuity,
    OIG’s recommendation addresses Letter No. 803. NRR will need to revise LIC-101 to satisfy the OIG
    recommendations.
                                                    7
                                      Review of NRR’s License Amendment/Safety Evaluation Process



    2.     Implement a process that ensures that NRR staff completes all steps necessary
           to process a license amendment and any resultant safety evaluations.

    3.     Implement a process for NRR staff to maintain and appropriately retrieve
           documents necessary to support the decision-making path of the license
           amendment process and any resultant safety evaluations.

VI. AGENCY COMMENTS

    At an exit conference held on August 30, 2001, agency managers generally agreed with
    the facts and recommendations contained in the discussion draft audit report. Agency
    management chose not to provide a formal written response for inclusion in the final
    report. Editorial suggestions provided by agency management were incorporated where
    appropriate.




                                           8
                                                                                     Appendix A
                                      Review of NRR’s License Amendment/Safety Evaluation Process



SCOPE AND METHODOLOGY

    The scope of this Office of the Inspector General (OIG) review was limited to those
    areas of U.S. Nuclear Regulatory Commission (NRC) operations related to the
    preparation and processing of safety evaluations for license amendments submitted by
    nuclear power plant licensees. To complete the audit objectives, OIG (1) reviewed
    regulatory and NRR program criteria governing the processing of safety evaluations; (2)
    held discussions with senior NRC officials in the Offices of Nuclear Reactor Regulation
    (NRR), the General Counsel, and Nuclear Regulatory Research; (3) attended related
    NRC meetings; (4) conducted interviews with industry and stakeholder representatives;
    and (5) analyzed a limited sample of license amendment requests and resultant safety
    evaluations. OIG evaluated the management controls related to NRR’s safety
    evaluation process with the involvement of technical branch review and conducted our
    work from September 2000 through July 2001 in accordance with generally accepted
    Government auditing standards. This review was conducted by: Bill McDowell, Team
    Leader; Bob Moody, Audit Manager; Cathy Colleli, Senior Management Analyst; and,
    Russell Irish, Staff Assistant for Planning and Reporting.




                                           9
                                                        Appendix A
         Review of NRR’s License Amendment/Safety Evaluation Process




[Page intentionally left blank.]




              10
                                                                                  Appendix B
                                   Review of NRR’s License Amendment/Safety Evaluation Process



LICENSE AMENDMENT WITH TECHNICAL BRANCH REVIEW PROCESS



                 Chart to large to scan into electronic document




    The following composite flow chart was developed by the Office of Nuclear
    Reactor Regulation NRR to depict the normal flow process for reviewing
    license amendment requests and developing resultant safety evaluations.
    It is provided to help the reader in understanding the process NRR uses,
    the reported OIG findings, and the OIG’s detailed findings analyses
    contained in Appendix C.




                                       11
                                                        Appendix B
         Review of NRR’s License Amendment/Safety Evaluation Process




[Page intentionally left blank.]




              12
                                                                                                Appendix C
                                                 Review of NRR’s License Amendment/Safety Evaluation Process

RESULTS OF OIG ANALYSIS OF SELECTED LICENSE AMENDMENT
APPLICATIONS

The Office of the Inspector General (OIG) reviewed four license amendment requests, the
Office of Nuclear Reactor Regulation’s (NRR) steps to resolve them, and NRR generated
documents to support the subsequent NRR decisions to allow the requested actions. The four
amendment requests reviewed were:

!      Indian Point Unit 2 (April 13, 1994) - An amendment request to permit steam generator
       tube sleeving as an alternative to removing defective tubes from service through the use
       of tube plugs and a proposal for a new tube acceptance criteria that would allow tubes
       that are degraded in a location not affecting structural integrity of the tube to remain in
       service (IP2-1);7

!      Indian Point Unit 2 (December 7, 1998) - An amendment request to permit a one-time
       only extension of the steam generator tube in service inspection interval (IP2-2);

!      South Texas Project Unit 2 (February 21, 2000) - An amendment request to implement
       an alternate-repair-criteria methodology for Unit 2 Model E steam generators (STP2),
       and

!      Perry Unit 1 (September 9, 1998) - An amendment request related to hydrostatic (water)
       testing of containment isolation valves in the Feedwater System lines (PERRY)8

Overall, OIG determined that NRR implemented most of the license amendment and safety
evaluation process steps required. However, NRR officials could not provide sufficient
documented evidence to prove that NRR staff took actions for many of the staff determinations
required by agency guidance.9

ADMINISTRATIVE PROCESSING

Licensees are responsible for initiating the actions that precipitate the need for a safety
evaluation. The bases for all safety evaluations must be rooted in either a technical, legal, or
safety issue. In almost all cases, the document submitted by the licensee to bring about
resolution of the issue is a proposed license amendment.




7
       Subsequent to this amendment being submitted, IP2 asked that the portion of the original amendment
       request pertaining to steam generator tube sleeving be separated from the original request in order to allow
       additional review of current sleeving technical issues.
8
       After submitting the initial license amendment application, Perry submitted a “Supplement to a License
       Amendment Request: Improved Licensing Design” on January 6, 1999. The first line of that supplement
       states, “This letter supercedes the Feedwater Penetration Improvement license amendment request dated
       September 9, 1998.” The issue of whether this was a “supplement” or “supercedes” the original license
       amendment application will be discussed in context during various portions of this appendix.
9
       It should be noted that all license amendment requests OIG reviewed involved technical branch reviews
       and preparation of safety evaluations. Therefore, OIG’s evaluation and subsequent conclusions relate only
       to the license amendment process when technical staff support is required.
                                                       13
                                                                                                 Appendix C
                                                  Review of NRR’s License Amendment/Safety Evaluation Process

Once a licensee has submitted a proposed license amendment, with a safety analysis of the
proposed change, it is received by the NRC Document Control Desk. The Document Control
Desk enters the proposed amendment and accompanying documents into the Agencywide
Documents Access and Management System (ADAMS) and sees that they are distributed to
the appropriate organizations. When proposed license amendments pertain to licensed nuclear
reactors, they are sent to NRR. Once received in NRR, a Technical Assignment Control (TAC)
number is provided for tracking and fee recovery purposes. Then, the proposed license
amendment package is assigned to the appropriate Project Section Chief in the Division of
Licensing and Project Management, NRR, who next assigns the package to the appropriate
project manager.

OIG ANALYSIS

For the four license amendment packages OIG reviewed, except for a few insignificant lapses
in documentation, the initial administrative processing followed agency guidance and was
supported by documented evidence.

       !        For STP2, the copy of the proposed license amendment request provided to OIG
                did not contain the ADAMS identifier.

       !        For PERRY, NRR did not provide the initial document on which the TAC number
                was assigned; however, subsequent documents NRR provided showed a TAC
                number was assigned.

ACCEPTANCE REVIEW

Once the proposed license amendment has been assigned to the appropriate project manager,
that individual (assisted by a licensing assistant) is required to perform an acceptance review.
In particular, the project manager is responsible for reviewing the license amendment
application for completeness and acceptability. Letter No. 803 states:

       The minimal requirements for amendment applications are described in 10 CFR
       [Title 10, Code of Federal Regulations, Parts] 50.4, 50.90, 50.91, and 50.92.[10]
       The following guidance highlights important key elements that should normally
       be contained in a license amendment application. It is provided to assist PMs
       [project managers] in their initial screening process. The guidance is not an
       interpretation or a substitute for conforming with the legal requirements of the
       regulations, nor does the guidance itself constitute an absolute requirement.

Letter No. 803 then indicates the key elements in an amendment application, as listed below:

       1.       oath and affirmation;
       2.       description of the amendment;
       3.       licensee’s safety analysis/justification for the proposed changes;
       4.       no significant hazards consideration determination;


10
       Title 10 Code of Federal Regulations, Part 50, Domestic Licensing of Production and Utilization Facilities;
       Par 50.4, Written communications.; Part 50.90, Application for amendment of license or construction
       permit.; Part 50.91, Notice for public comment; State consultation.; Part 50.92, Issuance of amendment.
                                                       14
                                                                                         Appendix C
                                          Review of NRR’s License Amendment/Safety Evaluation Process

       5.     requested review schedule and/or implementation period;
       6.     appropriate technical specification pages;
       7.     environmental assessment; and,
       8.     copy to appropriate State.

If a licensee’s amendment application does not include one or more of the preceding items,
NRR Letter No. 803 states that:

       the project manager should contact the licensee and arrange for the information
       to be submitted. Under these circumstances, the licensee may withdraw the
       request or may correct the deficiencies within a mutually agreed upon time. If
       the licensee does not correct the deficiencies within the specified time, the
       amendment may be denied. If an application is withdrawn or denied due to a
       deficiency in the submittal (as opposed to a definitive, negative finding by the
       staff based on the technical merits of the proposed changes), then a licensee
       may submit a new application (with the identified discrepancies corrected) at any
       time in the future.

OIG ANALYSIS

For the amendment packages reviewed, various key elements were missing in the copy of the
licensee’s submitted amendment applications provided by NRR.

       !      For IP2-1, items 5 and 7 were not evident. The NRR Work Request for this
              amendment says the basis for the priority assigned is “Required for Feb. 95
              refueling outage.” However, NRR provided no documented support for this date.
              Additionally, there was no consideration of environmental issues evident in the
              documents reviewed.

       !      For IP2-2, items 5, 6, and 7 were not addressed in the NRR supplied documents
              to support the amendment package. For item 6, there was a document cover
              sheet which is titled as an attachment to the amendment application, but the
              contents of the document were not provided to OIG. Again, there was no
              consideration of environmental issues evident in the documents reviewed.

       !      For STP2, items 6 and 7 were not addressed in the documents provided for
              review. For item 6, there were three attachments cited in the amendment
              application package, but NRR did not provide the attachments.

       !      For PERRY, items 1 and 5 are not addressed in the amendment application
              which was submitted as a supplement to the original request. Because the
              supplemental document indicated that it superceded the original license
              amendment requested, all information should have been considered new.
              Therefore, the licensee should have provided a new oath and affirmation.
              Additionally, although the original license amendment package had a review
              schedule requested, the supplemental package did not. If the original date
              requested remained the same (September 29, 1998), when the superceding
              supplement was submitted (January 6, 1999), this constituted a new amendment
              request and should have had an exigent public notification (see the section titled
              Public Notification later in this report).



                                              15
                                                                                          Appendix C
                                           Review of NRR’s License Amendment/Safety Evaluation Process

NRR managers said this acceptance review is not documented. According to them, if the
amendment request package is inadequate, no work begins until the matter is resolved or the
project manager denies the request due to inadequacy. However, based on the deficiencies
cited above, this is not the case. Additionally, if project managers took actions to resolve the
omissions, documented evidence was not provided to OIG. Without some format on which to
document this acceptance review, missing elements of the license amendment application
packages may go undetected. Additionally, the efficiency of the license amendment review
process can be impaired if required information is missing and must be resolved later in the
process.

CHARACTERIZATION OF REVIEW

Once administrative processing of the license amendment request is completed, the project
manager (with assistance from technical branch staff, as needed) must perform a
characterization review of the request. This review consists of searching for precedent
licensing actions and developing a work plan for evaluating the license amendment request and
processing the subsequent safety evaluation. If it is determined that technical branch
personnel will evaluate the amendment request, an NRR Work Request Form must be
completed to ensure coordination in the planning effort (See Appendix D).

       Search for Precedent Licensing Actions

       The project manager (with assistance from technical branch staff, as needed) has the
       primary responsibility for conducting a search for precedent licensing actions taken by
       the agency. Searching for, identifying, and using precedents in the review process
       maximizes staff efficiency, minimizes the need to issue requests for additional
       information, and ensures consistency of licensing actions.

       According to Letter No. 803, “Precedent licensing actions are those with a similar
       proposed change and regulatory basis for the SE [safety evaluation]. The search for a
       precedent should continue until NRR staff are satisfied that either 1) they have identified
       one or more appropriate precedents, or 2) that no appropriate precedents exist.” The
       letter also provides project managers with available resources to use in their precedent
       searches:

       !       Licensees - and their contractors who have developed systems to identify
               precedent amendments and often share information related to requests and the
               staff’s evaluation

       !       Staff Input - from discussion with other project managers and technical branch
               staff and consultation with staff in the Generic Issues, Environmental, Financial
               and Rulemaking Branch

       !       Staff Guidance - issued by lead project managers and technical branch staff
               may include model safety evaluations for some classes of amendments

       !       Internal NRC Home Page - whose software application can be used to search
               for safety evaluations related to the subject(s) of the amendment request dating
               from 1990 to the present

                                               16
                                                                                   Appendix C
                                    Review of NRR’s License Amendment/Safety Evaluation Process

!      ADAMS - whose software application can be used to search for amendments as
       well as other official agency records

!      WISP (Workload Information and Scheduling Program) - whose software
       application can be used to identify precedent licensing actions with comparable
       titles

!      Standard Technical Specifications (STSs) - where a comparison of the
       amendment request with appropriate sections of the corresponding improved
       STS may result in the identification of current policy pertinent to the amendment
       request being processes

!      Federal Register Notices - where the biweekly collection of proposed and
       issued amendment notices in the Federal Register can be scanned to search for
       similar amendment requests

Letter No. 803 points out that, “Staff should consult with their colleagues or managers to
obtain the training or guidance if they are unfamiliar with the use of any of these
documents.”

Develop a Work Plan

Following the preliminary assessment and search for precedent actions, information
necessary to develop a detailed plan for processing the amendment application should
be available. The plan is to define the scope and depth of the review, resources
needed, and the schedule for completion. If the project manager is to complete the
safety evaluation, technical branch staff will be consulted regarding the plan. If technical
branch staff are to prepare the safety evaluation, they should be involved in the
preparation of the work plan. Interaction between the project manager and technical
branch staff is dependent on the similarity between the license amendment requested
and precedent licensing actions, the risk significance of the amendment request, and
the technical complexity of the required review.

       Levels of similarity

According to Letter No. 803, there are three levels of similarity between an amendment
application and any related precedent:

!      No or Low Similarity - There is either no precedent to apply, or major
       modification to the precedent license amendment would be required for use for
       the application under consideration.

!      Medium Similarity - The review of the application could apply a precedent with
       limited technical modifications.

!      High Similarity - The review of the application could directly apply a precedent
       without technical modifications.



                                        17
                                                                                   Appendix C
                                    Review of NRR’s License Amendment/Safety Evaluation Process

       Levels of complexity

Additionally, there are three levels of technical complexity into which a required review
may be categorized:

!      Low Complexity - Includes changes to position titles in the technical specification
       administrative controls section and simple changes to set points or other
       technical specification details.

!      Medium Complexity - Includes extensions of allowed outage times or
       surveillance test intervals, or other changes that do not involve major changes or
       review of established NRC policies.

!      High Complexity - Includes significant restructuring of technical specifications,
       changes that introduce significantly different analytical methodologies, and
       changes that are related to revising established NRC policies.

       Risk insights

Risk insights, whether provided by the licensee or estimated by NRR staff, should be
considered and incorporated into the development of the work plan. These risk insights
should be handled in a similar manner to technical complexity. In general, technical
complexity categories correlate to risk significance categories as follows:

              Figure 1. Technical Complexity and Risk Significance

         Technical Complexity                         Risk Significance
                  Low                            Very Low Risk Significance
                Medium                       Low to Moderate Risk Significance
                  High                          Substantial Risk Significance

According to Letter No. 803, if precedents can be readily applied and the risk
significance and technical complexity are relatively low, the project manager should
prepare a plan and proceed with the review. Technical staff should be informed of this
intent, with the project manager identifying the precedent being used. In this way,
technical staff can understand the approach and acceptance criteria, suggesting
alternate precedents or identifying key issues that need to be addressed in the safety
evaluation. If a project manager intends to perform the review and has a general
understanding of how to proceed, but needs input from a technical branch to develop
the plan, an initial plan should be drafted. The technical branch will then perform an
informal review. If a technical branch review is being requested, the project manager
can prepare and submit a work request to the technical branch without significant prior
discussions.

However, when precedents are not readily applied and the risk significance and/or
technical complexity are relatively high, the project manager must take more strategic
steps. The project manager should prepare an information package regarding the
                                        18
                                                                                   Appendix C
                                    Review of NRR’s License Amendment/Safety Evaluation Process

license amendment requested for technical staff. Next, a meeting should be convened
to review issues and draft a review plan before submitting work request forms. Letter
No. 803 further cites that, “Involving licensees in meetings or conference calls before or
soon after submittals may be useful for amendment applications that involve complex
technical issues or policy changes for the NRC.”

        Figure 2. Project Manager’s Guidance for Amendment Package
                           Review and Concurrence




Figure 2, taken from Letter No. 803, provides guidance to project managers in
determining the level of support needed from technical branch staff in developing a work
plan. License amendments with low technical complexity and high precedents require
minimal technical staff involvement, while those with high technical complexity and low
precedents require direct involvement.




                                        19
                                                                            Appendix C
                             Review of NRR’s License Amendment/Safety Evaluation Process

Scope and Depth of Review

In most cases, the technical review of the amendment application represents the
largest amount of technical resources expended in processing an amendment.
Careful identification of what will be addressed in the review is essential to
effective planning. The following should be identified in either the statement of
scope and depth or as part of the review:

•      the regulatory basis for the amendment request;

•      the plant specific licensing bases including regulatory requirements and
       commitments upon which the subject technical specifications were
       originally developed;

•      the design, operating, and maintenance related safety concerns that will
       be addressed by the review;

•      any previous licensing amendments that will serve as a model in
       conducting the review;

•      all appropriate technical branch reviews required;

•      the data or information required to conduct the evaluation; and,

•      the relative risk significance of the amendment request.

In some cases, in lieu of providing a formal safety evaluation, technical staff may
provide informal guidance and responses to information needs by the project
manager.

Resources to be Used in the Review

The time of the project manager, technical staff, and contractor staff is the
primary resource expended in the review process. Estimates of staff
responsibilities and hours to be expended are required to ensure the efficient
and timely use of this resource.

A project manager will normally conduct the review and prepare the safety
evaluation for amendment requests that are relatively low in technical complexity
and risk significance, while having relatively high similarity to precedent licensing
actions. Conversely, technical staff will normally involve itself with requests that
are relatively high in technical complexity and risk significance, but having
relatively low similarity to precedent licensing actions. Discussions between the
project manager and technical staff will generally determine the assignment of
responsibility for other types of amendment requests that fall between these two
extremes. Use of contractors is determined by the technical staff based on (1)
technical expertise required to perform the scope of work, (2) availability of NRR
technical staff to support the review in a timely manner, and (3) availability of
funds to support contractor review efforts.

                                 20
                                                                                               Appendix C
                                                Review of NRR’s License Amendment/Safety Evaluation Process

                             Figure 3. Complexity/Risk Cross Matrix
                        to Similarity of License Application and Precedents

                                          Similarity Between Application and
                                                      Precedent11
                   Technical
                  Complexity
                  and/or Risk
                  Significance        No or Low             Medium                High

                      Low               72 hours            40 hours            20 hours
                    Medium              96 hours            72 hours            40 hours
                      High               Case-              96 hours            72 hours
                                        specific
                                      project plan

              While it is often difficult to estimate the staff hours needed to perform a review,
              developing a reasonable estimate is critical to developing a quality work plan. In
              considering all elements of the plan, best estimates of the number of hours for
              each NRR staff are supposed to be developed. Significant increases in these
              estimates during the course of the review must be brought to the attention of
              appropriate NRR management. Letter No. 803 provides general guidance for
              estimating the hours of effort needed to complete a review (see Figure 3), using
              the same complexity and similarity matrix contained in Figure 2. The hour
              ranges given are used for general guidance only.

              Schedule of Review

              It is essential for a complete work plan to have a firm date for completion of the
              amendment request review and preparation of the safety evaluation. Factors to
              be considered in the schedule determination are:

              •        safety significance and agency priorities;

              •        licensing action timeliness goals;

              •        licensee needs and desires, including implementation date;

              •        application priority;




11
     Per NRR Letter No. 803, these resource estimates are based on historical data and hours expended to
     produce the safety evaluation. Administrative effort is not included. Additionally, the hours expended are
     based on a per review basis (the safety evaluation or branch-specific portion of a safety evaluation) and not
     on a per TAC basis.
                                                     21
                                                                                               Appendix C
                                                Review of NRR’s License Amendment/Safety Evaluation Process

              •        review resource requirements and availability; and,

              •        contractor resource requirements and availability.

              The priority of an amendment review task is primarily determined on the basis of
              safety significance, risk considerations, and operational impact. Three levels of
              priority are defined in Letter No. 803:

              Priority 1: High Priority - Immediate action usually is required; the review
              completion date must be met; and, a firm commitment of resources is required.
              Priority 1 efforts involve the following:

              6        highly risk-significant safety concerns that require a firm commitment of
                       resources;

              6        actions needed to prevent or require plant shutdown, or allow restart; and

              6        issues for which immediate action is needed for compliance with statutory
                       requirements, or Commission or Executive Director’s Office directives.

              Priority 2: High Priority Near-Term12 - Short-term actions and/or minor changes
              to the review completion date can be negotiated. Priority 2 efforts involve the
              following:

              6        significant safety issues that do not rise to the level of immediate action
                       but require near-term staff evaluation; and

              6        activities needed to support continued safe plant operation, reload
                       analyses, or evaluation of necessary modifications or enhancements.

              Priority 3: Low Priority - Longer-term actions where the review completion date is
              flexible (but still required to support timeliness goals). Priority 3 efforts involve
              the following:

              6        cost beneficial licensing actions (CBLAs) are the highest priority for this
                       category;

              6        issues of moderate to low safety significance that do not directly impact
                       plant safety; and

              6        requests for technical specification amendments required for economic
                       advantage (e.g., changes in core and equipment operating limits, limiting




12
     As a minimum, risk-informed licensing actions are required to be assigned as Priority 2 unless Priority 1 is
     required due to safety significance or the need for immediate action.
                                                     22
                                                                                          Appendix C
                                           Review of NRR’s License Amendment/Safety Evaluation Process

                      conditions for operation and surveillance requirements, deletion of
                      equipment that is no longer used, and administrative technical
                      specification changes).

               Once the planning process is complete, the project manager should
               communicate the results (i.e., the categorization of the application, estimated
               technical review staff-hours, and completion time) to the licensee. The project
               manager and technical branch staff should resolve any concerns or issues raised
               by the licensee with respect to the staff’s planning of the license amendment
               review.

               If a review is performed by a technical branch, any changes in the safety
               evaluation completion date or estimated staff hours must be negotiated between
               the project manager and technical branch designee.

               Work Request Form

               Project managers use an NRR Work Request Form (See Appendix E to view a
               copy of the form and related instructions) when coordinating the planning of
               amendment reviews to be performed by technical branch personnel. This form,
               with sections completed providing background information and a description of
               the assistance being requested, is then submitted to the appropriate technical
               branch(s). The project manager must be as specific as possible with respect to
               the products requested by the work request. If proposed changes to a
               previously accepted work request form are agreed to by the project manager and
               the technical branch(s) involved, the project manager must document those
               changes in a revised work request.

OIG ANALYSIS

NRR Work Requests associated with the license amendment packages did not provide
sufficient evidence that all procedural and flow steps for the characterization reviews took place.

       !       For IP2-1, the NRR Work Request is an older version of the one currently in use.
               Except for the assignment of a “Priority 3" no other information outlined in Letter
               No. 803 is evident on the form; however, this was a 1994 amendment request.

       !       For IP2-2, the NRR Work Request shows a priority assigned, a target date
               provided, staff hours estimated, and the assigned technical reviewer. However,
               the other information outlined in the procedures is not provided.

       !       For STP2, multiple technical branches were involved in the safety evaluation
               review. There are three NRR Work Requests that show a priority assigned, a
               target date provided, staff hours estimated, possible precedents, and assigned
               technical reviewers for three branches. Each of the work requests also identifies
               a fourth technical branch being involved; however, there is no work request for
               that branch and no safety evaluation was provided by that branch. OIG cannot
               determine if that branch did or did not perform a review, but there are no records


                                                23
                                                                                          Appendix C
                                           Review of NRR’s License Amendment/Safety Evaluation Process

               to support that such a review was done. Almost one month after the project
               manager completed the work request for one branch, that branch almost
               doubled the proposed time estimate for its work, without evidence of project
               manager involvement.

       !       For PERRY, NRR managers said that work plans were developed, but not
               maintained. According to these managers, four NRR Work Requests were
               generated due to the involvement of four different technical branches. However,
               absent those documents, there is no evidence this planning took place.

Additionally, none of the documents NRR supplied to support the processing of the license
amendment requests contained any evidence that NRR had categorized precedents by
similarity or characterized the amendment requests by complexity. There also is no indication
as to what documents NRR utilized for each amendment request in determining the scope and
depth of the necessary review. Finally, there was no documented evidence that technical
branch chiefs participated in the characterization review or provided guidance on policies and
applicable precedents.

NRR managers said this characterization review is not documented other than the information
contained on the NRR Work Request. According to these managers, the steps outlined in
Letter No. 803 take place through discussions between the project managers and technical
branch reviewers. Furthermore, they said the NRR Work Request, and the information
contained therein, represents the results of these discussions.

TECHNICAL BRANCH INVOLVEMENT

Letter No. 803 and the NRR flow charts depicting the license amendment review process
indicate that technical branches are to be involved in the license amendment review process as
determined by the assigned project manager. One or more technical branches may be
assigned to work on a license amendment request.

Regulatory Requirements, Policies, and Applicable Precedents

When technical branches are responsible for developing safety evaluations, technical branch
chiefs provide guidance on policies and applicable precedents. Additionally, technical branch
reviewers are to define the regulatory requirements, policies, and applicable precedents to be
used and compare the license amendment proposal to them.

OIG ANALYSIS

NRR provided no record of this activity for any of the license amendment request packages.
NRR managers said these reviews are not documented. Technical branch chief involvement
related to providing guidance on policies and applicable precedents is performed during the
characterization of review, and the resultant NRR Work Request generated represents (in part)
this process. They further said that any precedents will be identified in the safety evaluation if
precedents are found and are used in generating the safety evaluation. With regard to the
technical branch reviewers, NRR managers said that at the point that regulatory requirements,
policies, and applicable precedents are being defined and compared to the submitted license
amendment proposal, the review of the particular license amendment request has gotten
underway. They said the different documents applicable to the review are utilized and will be
                                                24
                                                                                          Appendix C
                                           Review of NRR’s License Amendment/Safety Evaluation Process

identified in the final safety evaluation generated. Nothing is formally documented at this point.
Project managers involved with the license amendment requests OIG reviewed said there is no
documentation available that demonstrates these steps take place.

Although technical branch chiefs provide guidance on policies and applicable precedents,
nowhere in the process are technical branch chiefs required to sign off on the final safety
evaluations or license amendment packages. Additionally, in preparing the initial
characterization review at the project manager level, there is no document developed that
requires verification by the technical branch reviewers. In order to provide better confidence in
the process, NRR could develop an attachment to the NRR Work Request that outlines the
available resources used, and the results achieved, in the precedent searches (see the
previous Search for Precedent Licensing Applications section). Then, technical branch chiefs
and technical branch reviewers could add or delete from the initial list as the in-depth review
takes place. In this manner, better assurance would be provided that technical branch chiefs
are in agreement with the actions taken by their staff.

Requests for Additional Information

According to Letter No. 803,

       Requests for additional information (RAIs) serve the purpose of enabling the
       staff to obtain all relevant information needed to make a decision on a licensing
       action request that is fully informed, technically correct, and legally defensible.
       RAIs are necessary when the information was not included in the initial submittal,
       is not contained in any other docketed correspondence, or cannot reasonably be
       inferred from the information available to the staff. RAIs should be directly
       related to the applicable requirements related to the amendment application, and
       consistent with the applicable codes, standards, regulatory guides, and/or the
       applicable Standard Review Plan sections. RAIs should not be used as general
       information requests or as a means to encourage commitments from licensees.

RAIs should be appropriate and ensure that each question was developed with proper
consideration of the: regulatory basis of request; technical complexity of request; risk
significance of issues in question; existence of precedent amendments; appropriate scope and
depth of review; resource implications for both the staff and the licensee; and, information
already on the docket. Letter No. 803 provides guidance for common RAI concerns:

1.     Questions included in the formal RAI should ask for information that is required to make
       the regulatory finding. Each question should have a clear nexus to the staff’s regulatory
       finding. Including the regulatory finding in the question is a good practice.

2.     The staff should not issue any RAIs if the staff has (or can infer with a reasonable
       degree of confidence) the necessary information to make the regulatory finding. When
       an RAI is necessary, the staff should make every effort to limit itself to one round of
       RAIs per TB [technical branch] for an amendment application. The established




                                                25
                                                                                                 Appendix C
                                                  Review of NRR’s License Amendment/Safety Evaluation Process

     timeliness of goals are likely to be exceeded if multiple RAIs are needed to complete the
     staff’s review of a license amendment application.13

3.   Frequent and early communications between the PM [project manager], TB [technical
     branch] staff, and the licensee can avoid the need for many RAIs. To ensure an
     effective and efficient review, project managers are required to notify the licensee prior
     to issuing an RAI and document the conversation in the RAI cover letter. This
     notification should be a meeting or conference call attended by the PM, TB reviewer,
     and licensee. The proposed RAI questions should be discussed and a mutually agreed
     upon due date should be established. This due date should be reflected in the RAI
     cover letter. In order to facilitate resolution of the issues, questions may be faxed or e-
     mailed to the licensee prior to the meeting or conference call. Answers that are needed
     to make a regulatory finding (i.e., that are not merely clarifications of information already
     on the docket) should be placed on the docket. The staff’s questions may be docketed
     by forwarding an official RAI to the licensee, generating a memo to file and placing it on
     the docket or by having the licensee refer to the teleconference/e-mail/fax in their
     docketed response. The specific method used is case-specific and depends on the
     needs of the licensee, the potential public interest, and the needs of the NRC staff.

4.   Before developing an RAI, the staff should ensure that the information is not already
     available to the staff or that the answer could not reasonably be inferred from general
     knowledge, existing regulatory requirements, previously docketed correspondence, or
     generally accepted industry practice.

5.   Questions should be specific rather than overly broad, and the response to the RAI
     should be of value to the staff’s safety evaluation basis.

6.   If an RAI is issued and the licensee’s response does not fully address the RAI, the PM
     will set up a meeting or conference call attended by the PM, TB reviewer, and licensee
     management to discuss the discrepancy and what needs to be provided to the staff on a
     timely basis in order to complete the amendment review. Failure of the licensee to
     provide timely information may result in a denial or withdrawal of the amendment based
     on a deficiency in the submittal as opposed to a definitive, negative finding by the staff
     based on the technical merits of the proposed change. The licensee may submit a new
     application (with the identified discrepancies corrected) at any time in the future.

7.   If a disagreement arises with the licensee regarding the appropriateness of an RAI or
     whether or not the information was provided, the issues should be raised immediately to
     management for proper resolution.

8.   Consistent with Section 4.2, the staff should make use of previous reviews in order to
     avoid asking unnecessary questions.



13
     On November 3, 2000, the Director, NRR, provided a letter to NRR technical employees clarifying RAIs. In
     his letter, the Director says “...there is a concern that some staff may be taking the OL [Letter No. 803]
     guidance of ‘one round of RAIs’ as an absolute limit to be implemented without exception. In addition, the
     current wording in OL 803, Rev 3, may be contributing to a misinterpretation by stating that ‘every effort’
     should be made to limit the staff to one round of RAIs per TB [technical branch].” In his summary, the
     Director states, “ I would like to reinforce that although it is desirable to obtain the necessary information in
     ‘one round of RAIs,’ additional RAIs may be necessary.”
                                                       26
                                                                                            Appendix C
                                             Review of NRR’s License Amendment/Safety Evaluation Process

9.     The timely issuance of an RAI, if necessary, and the licensee’s agreed upon time to
       respond should be factored into the schedule established to complete the review within
       the licensing action timeliness goals (e.g., FY00 and beyond goals of completing 95% of
       applications in less than 1 year).

The letter further indicates that “The intent of this guidance is not to limit the staff from getting
the information that is needed to perform a technical review; rather, this practice is needed to
ensure that the information requests will be productive and focus staff and licensee resources
on the pertinent issues necessary to make a regulatory decision.”

OIG ANALYSIS

OIG’s review of the four license amendment packages revealed mixed results.

       !       For IP2-1, there was an RAI. However, NRR provided no evidence of
               concurrence by the technical branch section chief for the initial questions.
               Additionally, documents related to the staff evaluation of the proposed
               amendment reference a telephone conversation of January 11, 1995, between
               NRC and the licensee. However, no documents were provided that indicated
               what was discussed. NRR met all other requirements for submitting the formal
               RAI.

       !       For IP2-2 and STP2, NRR provided evidence to substantiate initial RAI question
               preparation and concurrence with the technical branch section chief’s signed
               concurrence. Additionally, NRR met all other requirements for submitting the
               formal RAI. In the case of STP2, after NRR submitted the RAI, the licensee
               requested a meeting to discuss the questions and possible responses. NRR
               properly provided public notice for the meeting, as well as a subsequent meeting.
               When the licensee responded to the original RAI, it referred to an informal
               submittal of an addendum to NRC and indicated that NRC staff comments on the
               draft addendum had been incorporated into the attachments to the RAI. NRR
               did not provide evidence of the licensee’s informal submittal or staff comments.

       !       For PERRY, NRR provided no evidence that RAIs were prepared. Rather, NRR
               held three separate meetings with the licensee to discuss issues associated with
               the amendment request. Although documented summaries of the meetings
               were provided to OIG, they only allude to the questions which NRR might have
               raised and the responses the licensee gave. However, specific questions were
               not provided. Subsequently, after these meetings, the licensee submitted a
               “supplement” to the initial amendment request which superceded the original
               request. It appears that this occurred due to the exchange of information in the
               meetings between NRC and the licensee. In this case, there is no evidence that
               the RAI steps were ever taken.

While NRC must docket responses to RAIs, summaries of meetings with licensees are not
addressed in NRR guidance and there was no evidence provided that NRC docketed the
PERRY meeting summaries. Additionally, NRR provided no evidence that the information
provided by the licensee in the meetings was under oath or affirmation. Therefore, if NRR
considered the information received in the three meetings when reviewing the “supplemental”
amendment request, that information did not have the same strength of support as responses
                                                  27
                                                                                         Appendix C
                                          Review of NRR’s License Amendment/Safety Evaluation Process

to an RAI submitted under oath and affirmation. Letter No. 803 does say that, “Involving
licensees in meetings or conference calls before or soon after submittals may be useful for
amendment applications that involve complex technical issues or policy changes for the NRC.”

However, holding meetings in lieu of sending out RAIs is not recognized in Letter No. 803 or the
corresponding flow charts. The need to notice these meetings also is not formally recognized
in these agency documents. NRR should develop appropriate guidance if this practice is
considered to be acceptable.

Preparing the Safety Evaluation

There are several sections to a typical safety evaluation. The introduction section should
provide a brief description of the licensee’s amendment request, as well as other specific
information identified in Letter No. 803. The background section provides the regulatory
framework for the licensing action. A description of the system or component, if applicable,
may also be needed to better describe the effects of the change. Additionally, the “why” of a
licensee’s request may be provided -- a summary of the licensee’s rationale for the proposed
change, including operating problems, changes in technology, or changes in analytical
approaches. Any precedent licensing actions utilized in the review should also be mentioned in
this section, with any differences in circumstances and/or regulatory finding between the
submittal in question and the precedent being noted and addressed. Material related to
regulatory acceptance criteria and the licensee’s incentive for the proposed change may be
included in the introduction and evaluation sections in lieu of having a separate background
section. However, the preferred format includes a background section.

The evaluation section documents the staff’s evaluation of a proposed change against the
relevant regulatory criteria. This should include a description of the proposed changes and an
analysis of the proposal in terms of regulatory requirements, established staff positions,
industry standards, or other relevant criteria. The evaluation should also contain the staff’s
specific conclusion that the proposed change is acceptable in terms of public health and safety.
Information contained in the safety evaluation should be consistent with the licensee’s
submittal(s), should not contradict the submittal(s), and should not impose any commitments
not agreed upon by the licensee in the submittal(s).

OIG ANALYSIS

OIG’s review revealed that the safety evaluations prepared for both IP2 amendment requests
met procedural guidance. However,

       !      For STP2 there was no safety evaluation from one branch originally assigned to
              perform a review as indicated on an NRR Work Request. A different branch, for
              which no assignment had been made, did complete a safety evaluation. NRR
              did not supply any evidence that the NRR Work Request had been revised and
              changes were made in branch assignments. Furthermore, two branches did not
              follow the safety evaluation format contained in Letter No. 803. Additionally,
              except for one branch, the safety evaluations NRR provided for review did not
              contain evidence of the required concurrence signatures.



                                               28
                                                                                                Appendix C
                                                 Review of NRR’s License Amendment/Safety Evaluation Process

       !       For PERRY, safety evaluations were provided by four technical branches, but
               they also did not conform to the format contained in Letter No. 803. Although
               the information provided covers the topical areas, the specific areas are not
               clearly delineated. In addition, except for one safety evaluation, NRR provided
               no evidence of required concurrence signatures.

ANCILLARY PROJECT MANAGER RESPONSIBILITIES

After the project manager receives a license amendment request, performs the acceptance
review, participates in the characterization of review, completes the NRR Work Request, and
provides the amendment documents to the assigned technical branch reviewers, the project
manager completes a number of significant ancillary responsibilities. These include preparing a
public notification about the amendment request, determining whether an amendment request
involves no significant hazards consideration, preparing an environmental assessment (as
applicable), and reviewing/evaluating licensee requests for withholding information.

Public Notification and No Significant Hazards Consideration

Public notification is the primary mechanism for the NRC to meet its goal regarding openness to
the public. The staff needs to determine whether an amendment request involves no significant
hazards consideration, as well as, seek public comment and provide an opportunity for a
hearing regarding the proposed amendment as defined in 10 CFR 50.91. The no significant
hazards consideration standard is a procedural criterion that governs whether NRC must
provide an opportunity for a prior hearing before NRC takes action and whether prior notice for
public comment may be dispensed with in emergency situations or shortened in exigent
circumstances.14 For those amendments that do not satisfy the criteria, an individual notice in
the Federal Register will announce the opportunity for a hearing prior to the issuance of the
amendment.

According to Letter No. 803, the majority of amendment requests are found to satisfy the no
significant hazards consideration criteria and, therefore, can be handled in the routine fashion.
The regulations specify that the normal course of business is to provide a 30-day comment
period following publication of a description of the proposed amendment, along with its
associated proposed no significant hazards consideration determination. If the staff determines
that the request involves no significant hazards consideration, the regulations allow for issuance
of the amendment with less than a 30-day comment period. The letter provides the criteria for
normal (30-day), emergency, and exigent (15-day) public notification, as well as exigent local
notification. Project managers are responsible for evaluating the significant hazards
consideration and preparing the Federal Register notice (FRN). Licensing assistants and
project section chiefs are to review and concur with the FRN. The project manager is then
responsible for signing the FRN.




14
       Although it may be legally permissible to issue an amendment for which a hearing has been requested,
       provided that the staff prepares a final no significant hazards determination, NRR Office Director and
       Commission notification are required if the staff plans to do this.
                                                      29
                                                                                          Appendix C
                                           Review of NRR’s License Amendment/Safety Evaluation Process

OIG ANALYSIS

For the license amendment requests OIG reviewed, the STP amendment was the only one for
which NRR provided sufficient evidence that the public notification and significant hazards
consideration steps were adequately completed.

       !      For IP2-1 and IP2-2, NRR did not provide the Federal Register notices. This
              resulted in OIG not being able to evaluate the determination by the project
              manager regarding the significant hazards consideration. Additionally, OIG
              could not determine if appropriate concurrences were provided. Although NRR
              did provide a log maintained by a licensing assistant which revealed the Federal
              Register notice identification numbers and dates of publication, OIG did not seek
              to verify their veracity as this would not demonstrate that the required actions
              took place.

       !      For PERRY, NRR did not provide the draft Federal Register notices to provide
              evidence that proper concurrences were made. Additionally, when NRR
              received the “supplement” which superceded the original license amendment
              request, NRR did not provide documentation of the public notification.

Environmental Assessments

The Environmental Protection Regulations for Domestic Licensing and Related Regulatory
Functions (10 CFR Part 51) provides, among other things:

       The criteria for and identification of licensing and regulatory actions requiring
       environmental impact statements [Part 51.20];

       The criteria for and identification of licensing and regulatory actions requiring
       environmental assessments [Part 51.21]; and,

       Criterion for categorical exclusion; identification of licensing and regulatory
       actions eligible for categorical exclusion or otherwise not requiring environmental
       review [Part 51.22].

In preparing a response to an amendment request, the project manager must prepare an
environmental assessment or list the appropriate categorical exclusion to explain why one was
not prepared. The issued amendment must reference the environmental assessment’s
publication in the Federal Register, which must occur prior to issuance of the amendment.

OIG ANALYSIS

The four OIG reviewed license amendment requests had categorical exclusions that relieved
the project manager from preparing an environmental assessment. All of the NRC license
amendment packages approving the requests contained a statement identifying the
environmental assessment category exclusion.




                                                30
                                                                                                Appendix C
                                                 Review of NRR’s License Amendment/Safety Evaluation Process

Withholding Information

The project manager is responsible for determining if a licensee’s submittal includes any
proprietary information. Criteria regarding the withholding of records is contained in 10 CFR
2.790.15 The project manager is responsible for the review of the material requested to be
withheld from the public in order to ensure that the information satisfies that criteria. NRR
provides project managers with additional guidance pertaining to proprietary information in
NRR Office Letter No. 602, “Procedures for Handling Requests to Withhold Proprietary
Information.” Project managers may also get assistance in making this determination from
licensing assistants, technical branch staff, and OGC.

If a licensee submits an amendment request and indicates it contains proprietary information,
the project manager must prepare a response to the request. The request is then to be routed
for review and concurrence by the licensing assistant, technical branch chiefs involved in the
review, OGC, and the cognizant project section chief. Once this is accomplished, the project
manager signs the final response.

OIG ANALYSIS

For two of the amendment requests (IP2-2, PERRY), licensees did not claim proprietary
information.

       !       For IP2-1, the licensee indicated in its response to the RAI that it considered
               certain items proprietary. However, NRR provided no evidence that a response
               was prepared to address this issue. NRR staff said they had done so, but could
               not locate the document. OIG notes that the NRR Work Request and the
               Amendment Routing Sheet that NRR uses during license amendment reviews do
               not contain any area to note that proprietary information must be considered.

       !       For STP2, the licensee claimed proprietary information and the project manager
               handled the request according to agency guidance.

If proprietary information is to be withheld, the agency must ensure that the basis for such
withholding is clearly articulated and available for public review. This is necessary to help
ensure stakeholder confidence in the license amendment process.

Review and Concurrence

According to Letter No. 803, “Review and concurrence is the process by which the quality and
consistency of the amendment package is verified. Concurrence involves obtaining the
approved signatures required for amendment issuance.” The project manager is responsible
for ensuring that appropriate concurrences are received for the amendment package. Once the
concurrence chain is determined, the name, title, and organization of each individual is entered
on an amendment routing form. When the project manager has prepared the amendment
package, the technical branch(s) associated with the technical area(s) of the proposed changes


15
       Title 10, Code of Federal Regulations, Part 2 [Rules of Practice for Domestic Licensing Proceedings and
       Issuance of Orders], Subpart G [Rules of General Applicability], Section 2.790 [Public inspections,
       exemptions, requests for withholding.]
                                                      31
                                                                                         Appendix C
                                          Review of NRR’s License Amendment/Safety Evaluation Process

must concur on the package. However, the technical branch(s) may agree to let a project
manager perform their function (e.g., for certain line item improvements) in some cases.

Before sending the amendment package to other NRR organizations, licensing assistants
perform an initial review and concurrence. During this review, they ensure the package is
complete, in the correct format for text and graphics, and all required steps have been taken.

If a technical branch prepares the safety evaluation, the project manager has the responsibility
to integrate it into the overall amendment package. If the project manager makes substantial
changes to the safety evaluation, the technical branch reviewer who prepared the original
safety evaluation should be an early reviewer in the concurrence chain. This is to ensure that
there is no change in the technical content of the safety evaluation. If the project manager
includes the safety evaluation from a technical branch with only minor editorial changes, that
technical branch does not need to provide additional concurrence. However, in these cases,
the concurrence document must identify the technical branch in the concurrence block. The
technical branch can then be crossed off the concurrence block with a note indicating that
safety evaluation input was provided by the technical branch and no major changes were made.

Letter No. 803 indicates that, to assist those requested to concur, amendment packages should
include:

       •      a copy of the license amendment;

       •      a copy of the safety evaluation;

       •      a copy of the incoming license amendment request, including all related
              docketed correspondence;

       •      a copy of the Federal Register notice (or the forwarding memorandum);

       •      a copy of any relevant background information, including similar evaluations
              used in preparing the safety evaluation, related internal documents, and easily
              attached reference material;

       •      a memorandum forwarding the Federal Register notice of issuance; and,

       •      a routing form, including the applicable Standard Review Plan section number.

It is permissible to expedite the review and concurrence process by using parallel concurrences
if the amendment requires several concurrences and timing is of concern. Project managers
must ensure that comments incorporated during the concurrence process do not affect the
bases for concurrences received before the changes were made to the amendment package.
Project section chiefs or their designees (possibly the project managers) must provide the final
concurrence for all amendments processed. If not, they must confirm and document
amendment package correctness by their signature on the amendment cover letter and
amended license.




                                                 32
                                                                                           Appendix C
                                            Review of NRR’s License Amendment/Safety Evaluation Process

Amendment Preparation and Issuance

After required concurrence signatures are obtained, the amendment package is issued to the
licensee and notice is sent for transmittal to the Federal Register. NRR must call the affected
State’s contact for no significant hazards consideration for comments prior to issuance of an
amendment. Additionally, the Offices of Administration and the Secretary are contacted prior to
issuance to determine if the agency received comments from the public or petitions to intervene
on the proposed amendment. While project managers are responsible for issuing
amendments, licensing assistants perform most of the required administrative functions. A final
license amendment package should include:

       •      a letter transmitting the amendment to the licensee for signature by the project
              manager;

       •      a standard distribution or “cc:” list;

       •      the license amendment for final signature by the appropriate level of
              management;

       •      the revised technical specification or license pages;

       •      the safety evaluation, with reference to an environmental assessment, if
              appropriate (the environmental assessment is issued as a separate document);

       •      input to the biweekly Federal Register notice or a separate Federal Register
              notice of issuance; and,

       •      a listing for internal distribution to organizations within the agency.

Letter No. 803 also identifies several different areas that should be addressed in the final
amendment package. In addition to the technical considerations of the safety evaluation, the
issued amendment will include regulatory commitments, emergency/exigent provisions, a final
no significant hazards consideration determination (if needed), evidence that NRR has
consulted with the appropriate State official and addressed any state comments, environmental
considerations, and a conclusion that the amendment will not endanger public health and
safety. All documents referenced in the safety evaluation should be readily available for public
inspection (if not proprietary) in the NRC Public Document Room or available for purchase from
other sources in the public domain.

OIG ANALYSIS

OIG’s review of documents related to the four final amendment packages revealed that NRR
staff completed most review, concurrence, and final preparation steps as required. However,

       !      For IP2-1 and IP2-2, there was no block for technical branch staff to sign or line
              through (if no significant changes were made to the safety evaluation prepared
              by the technical branch and contained in the final amendment approval package)
              to indicate concurrence. Additionally for IP2-1, while all documents referenced in
              the safety evaluation portion of the amendment approval package should be

                                                 33
                                                                                           Appendix C
                                            Review of NRR’s License Amendment/Safety Evaluation Process

               readily available for public inspection, a referenced letter of January 12, 1995,
               from the licensee to NRC, was not provided.

       !       For STP2, the approved amendment package contains the relevant information
               required, but the copy provided does not contain evidence of review and
               concurrence signatures.

       !       For PERRY, the approved amendment package also contains the relevant
               information required, but the copy provided did not contain evidence of review
               and concurrence signatures for two of the technical branches involved.

Additionally, for the different areas beyond the technical considerations of the safety evaluation
identified above, all are not required in all cases. For the packages reviewed, there is no
indication of when these exceptions exist other than they have not been addressed (i.e.,
regulatory commitments, emergency/exigent provisions). Therefore, there is no way to
determine by review of the documents NRR provided if they should or should not have been
addressed. Additionally, NRR did not provide the amendment routing sheet for IP2-1, IP2-2, or
PERRY.

Review and concurrence with the final license amendment package is integral to the overall
decision making process NRR uses in approving or denying license amendment requests.
Inability to demonstrate that all responsible individuals have participated in this part of the
process can erode stakeholder confidence in the overall process.




                                                34
                                                                       Appendix D
                        Review of NRR’s License Amendment/Safety Evaluation Process


NRR WORK REQUEST FORM




                             35
                                                        Appendix D
         Review of NRR’s License Amendment/Safety Evaluation Process




[Page intentionally left blank.]




              36
                                                                                      Appendix E
                                       Review of NRR’s License Amendment/Safety Evaluation Process


RECORD RETENTION REQUIREMENTS

    NRC has established requirements for defining, identifying, and retaining official agency
    records. These requirements are specifically outlined in Management Directive
    Handbook 3.53, Part 1 (Volume 3, Part 2 - Records Management, NRC Records
    Management Program - MD 3.53) and in the ADAMS 3.3 Desk Reference Guide
    (ADAMS Guide).

    Significantly, information regarding official agency records provided in MD 3.53 says:

    Defining Federal Records (1)

           Federal records are statutorily defined in 44 U.S.C. [United States Code]
           3301 as follows: (a)

                  ‘All books, papers, maps, photographs, machine readable
                  materials, or other documentary materials, regardless of
                  physical form or characteristics, made or received by an
                  agency of the United States Government under Federal law
                  or in connection with the transaction of public business and
                  preserved or appropriate for preservation by that agency or
                  its legitimate successor as evidence of the organization,
                  functions, policies, decisions, procedures, operations
                  or other activities of the government or because of the
                  informational value of the data in them.’ [emphasis
                  added]

                  Several key terms, phrases, and concepts in the statutory
                  definition of records are defined in 36 CFR 1222.12, as
                  follows: (b) ...

                  Made means the act of creating and recording information
                  by agency personnel in the course of their official duties,
                  regardless of the method(s) or the medium involved. The
                  act of recording is generally identifiable by the circulation of
                  the information to others or by placing it in files accessible
                  to others. (iii) ...

                  Appropriate for preservation means made or received
                  documentary materials that in the judgment of the agency
                  should be filed, stored, or otherwise systematically
                  maintained by an agency because they are evidence of
                  agency activities or contain unique information, even
                  though the materials may not be covered by the agency’s
                  current filing or maintenance procedures. (vi) ...




                                             37
                                                                                    Appendix E
                                     Review of NRR’s License Amendment/Safety Evaluation Process

Identifying Federal Record (2)

              To ensure that complete and accurate [emphasis added]
              records are made and retained in the NRC, it is essential
              that NRC employees distinguish between record and non-
              record materials by the appropriate application of the
              statutory definition of records to NRC documentary
              materials. The following guidelines issued by NARA
              [National Archives and Records Administration] in 36 CFR
              1222.34 should be applied to all documentary materials to
              determine their record or nonrecord status.

       Record status - Documentary materials are records when they
       meet both of the following conditions: (a)

              They are made or received by an agency of the
              United States Government under Federal law or in
              connection with the transaction of agency business.
              (i)

              They are preserved or are appropriate for
              preservation as evidence of agency organization
              and activities or because of the value of the
              information they contain. (ii)

       Working files and similar materials - Working files, such as
       preliminary drafts and rough notes and other similar materials, will
       be maintained for purposes of adequate and proper documentation
       if - (b)

              They were circulated or made available to
              employees, other than the creator, for official
              purposes such as approval, comment, action,
              recommendation, follow up, or to communicate with
              agency staff about agency business. (i)

              They contain unique information, such as
              substantive annotations or comments included
              therein, that adds to a proper understanding of the
              agency’s formulation and execution of basic
              policies, decisions, actions, or responsibilities. (ii) ...

Additionally, the ADAMS Guide reiterates much of this same information. This document
contains either exact or similar definitions for official agency records and addresses the
same issues contained in MD 3.53. The ADAMS Guide adds:




                                          38
                                                                           Appendix E
                            Review of NRR’s License Amendment/Safety Evaluation Process

In summary, the legal definition has three key points:

       1.      Records are made or received by a Federal agency
               either to comply with a law or to conduct public
               business. As a result, they belong to the
               Government rather than to individuals, and their
               legal disposition depends on the prior approval of
               the Archivist of the United States.

       2.      Records are, or should be, preserved because they
               constitute evidence or contain information of value.
               They document an agency’s organization, functions,
               and activities or the persons, places, things, or
               matters dealt with by an agency.

       3.      Records vary widely in their physical form or
               characteristics. They may be on paper, electronic,
               audio-visual, microform, or other media.

Examples of Official Agency Records [OAR]. Some examples ...

       Communications related to NRC programs, policies,
       organizations, decisions, decision making, [emphasis
       added] minutes, or agendas.

       Messages that contain unique information that explain why
       the agency made a decision or took an action.

       Messages that direct one to take an action or that one uses
       to direct another to act.

       Draft of records ... circulated for approval, comment, or
       action that are significantly changed in the final version and
       for which the written comments on the drafts provide insight
       into the basis for an agency position or decision and are not
       documented in the OAR.

       Information that the NRC creates or acquires via e-mail,
       facsimile, telephone record, or meeting notes, about an
       inspection of a licensee’s facility that (1) contains unique
       information, (2) the rationale for an NRC decision, or (3)
       guidance that is not documented in the OAR.




                                 39
